      Common Problems
  and Uncommon Solutions:
How OIGs are Helping Improve
 Federal Travel Card Programs




President’s Council on Integrity and Efficiency
Executive Council on Integrity and Efficiency




 Inspection and Evaluation Committee
Contents
 MESSAGE FOR THE PCIE and ECIE                              i

 EXECUTIVE SUMMARY                                          ii

 FOREWORD                                                   v

 INTRODUCTION                                               1

      Purpose                                               3

      GSA Master Contract                                   4

      Federal Laws and Guidance                             5

      GAO’s Standards for Internal Control                  5

      Roles and Responsibilities                            6

 COMMON PROBLEMS AND BEST PRACTICES                         8

      Lack of Adequate Written Policies                     8
              and Procedures and Training

      A Large Number of Inactive, But Open Accounts         13

      Ineffective Blocking of Merchant Category Codes       16

      Late Identification of Card Misuse and Delinquency,   17
              and Failure to Provide Timely Notification
              to Supervisors



          PCIE            Fall 2003              ECIE
Contents
COMMON PROBLEMS AND BEST PRACTICES
(continued)

    Failure to Monitor Transactions for Misuse as              19
             Well as Delinquencies

    Not Keeping Written Records of Referrals                   20
           and Supervisory Follow-up

    Inappropriate ATM Use                                      22

    Insufficient or Inconsistent Discipline for Employees      24
             Who Do Not Pay Their Bills on Time or Knowingly
             Make Inappropriate Charges

    Using Cash Advances to Fund the Travel of                  26
           Employees Who Have Lost the Use of Their Cards
           Through Delinquency or Misuse

CONCLUSION                                                     27

ACRONYMS                                                       28

APPENDIX                                                       29




             Inspection and Evaluation Committee
PCIE   Fall 2003   ECIE   i
Executive Summary
T
        he purpose of this guide is to enhance the Offices of Inspector General
        (OIG) oversight of the Federal Travel Card Program. According to the
        General Services Administration, Federal employees and agencies charged
$6.42 billion in travel expenses on government credit
cards in fiscal year 2002. With recent congressional
and OIG reports, hearings, and press stories on
Federal purchase and travel card use, both the Office
of Management and Budget (OMB) and Congress
are contemplating ways to address purchase and
travel card abuse.

This guide synthesizes the experiences and results of OIG evaluations and audits
of various Federal agencies’ travel card programs. Although not all of the agencies
contract with the same service provider or organize their travel card programs in
the same manner, we identified common weaknesses and best practices among
these agencies. In addition, the guide provides information on the pertinent terms
and conditions of the GSA Master Contract, guidance that should be consulted in
assessing a travel card program, the GAO’s Standards for Internal Control in
the Federal Government, and the roles and responsibilities of the parties involved
in the travel card program.

The following is a list of the more common problems related to the use --and
sometimes misuse-- of Federal travel cards that were identified by Inspector
General offices:

               Lack of adequate written policies, procedures, and
                training for the travel card program.

               Failure to routinely review and/or close a large
                number of inactive accounts.

               Outdated employee information.



ii               Inspection and Evaluation Committee
               Ineffective blocking of (inappropriate) merchant
                category codes.

               Late identification of misuse and delinquency, and failure to
                provide timely notification of such to a cardholder’s supervisor.

               Failure to monitor transactions for misuse, as well as
                delinquencies.

               No or inadequate written records of referrals to and
                follow-up with supervisors or employees.

               Inadequate controls over employee use of automated
                teller machines to obtain funds for travel.

               Failure to discipline employees who refuse to pay their bills or
                knowingly make inappropriate charges.

               Use of travel advances by employees who have “lost” the use
                of their cards through delinquency or misuse.

Problems are only part of the story with our guide. We have attempted to discuss
the problems in the context of ways to address them by highlighting some of the
best practices and other findings by OIGs that should be pursued to promote a
more efficient and effective federal travel card program. Hence this guide includes
a discussion of a composite of best practices from several agencies that should be
useful in assisting agencies reduce the number of travel card delinquencies and
improve management of the overall program. We have found just how beneficial
it can be when there is:

               clear management support for the program;

               timely identification and referral of delinquencies and charge card
                abuses to the cardholder’s supervisor;

               timely referral of unresolved delinquencies and serious or frequent
                misuse to higher levels of management;

             PCIE            Fall 2003                ECIE                     iii
                 referral of unresolved delinquencies and serious or frequent misuse
                  to component investigative units;

                 meaningful, consistent disciplinary action against cardholders for
                  early infractions as well as for frequent delinquencies or for serious
                  or frequent misuse of the charge card;

                 strong headquarters oversight of the local travel card program
                  coordinators;

                 prohibition of the use of advances to fund travel for employees
                  who have lost the use of their charge cards through delinquency
                  or misuse;

                 routine provision to the service provider of updated information
                  about cardholders and their duty stations;

                 control and restricted use of ATM access;

                 limited distribution of charge cards to or physical control over the
                  charge cards of employees who rarely travel; and

                 adequate guidance and training for local coordinators and briefings
                  for cardholders on the proper use of the travel charge card.




Note: To access OIG reports that synthesize the results of OIG evaluations and audits of
various Federal agencies’ travel card programs, please visit the President’s Council on
Integrity and Efficiency (PCIE)/Executive Council on Integrity and Efficiency (ECIE) Inspection
and Evaluation Committee’s Directory of Purchase and Travel Card Reports at www.ignet.gov.




iv                  Inspection and Evaluation Committee
Foreword
T
       he President’s Council on Integrity and Efficiency (PCIE) and the
       Executive Council on Integrity and Efficiency (ECIE) were established
       by Executive Order 12805, May 11, 1992, to

               address integrity, economy, and effectiveness issues that
                transcend individual government agencies, and

               increase the professionalism and effectiveness of Inspector
                General personnel throughout the government.

The PCIE is primarily composed of the presidentially appointed IGs. The ECIE is
mainly composed of the IGs who are appointed by agency heads. Chairing both
councils is the Deputy Director for Management for the Office of Management
and Budget. The Chair appoints the Vice
Chair for each council to assist in carrying
out its functions. Officials from OMB, the
Federal Bureau of Investigation, Office of
Government Ethics, Office of Special
Counsel, and Office of Personnel
Management also serve on both councils.

To accomplish their missions, the PCIE and
ECIE conduct interagency audit, inspection,
evaluation, and investigative projects aimed
at promoting economy, efficiency, and
effectiveness in Federal programs and operations. To enhance the efficiency of
these projects, the councils have also developed policies, standards, and approaches
that have helped build a well-trained and highly skilled OIG workforce. Because
the PCIE and ECIE are made up of members from many Federal agencies, these
projects can effectively address crosscutting or government-wide issues of fraud,
waste, and abuse.




             PCIE             Fall 2003                ECIE                      v
INSPECTION AND EVALUATION COMMITTEE

The Inspection and Evaluation Committee of the PCIE/ECIE provides contributions
to the Inspector General community as well as the Federal government as a whole
by helping to improve (1) the management of Federal programs; (2) the conduct
of inspections and evaluations by sharing effective practices and insights; and (3)
the analytic and administrative skills of OIG inspectors and evaluators by providing
training on a variety of pertinent topics. The Committee is supported by a very
active Inspections and Evaluation Roundtable. The Roundtable, created in 1993,
is generally comprised of the directors or heads of inspection and evaluation units
within the Federal Offices of Inspector General. Its purpose is to promote the
professional development of employees in those units, improve the practice of
evaluation and analysis, and provide positive contributions to the Inspector General
community. These advances in professionalism and service aid the Federal
government as a whole in improving the management of programs and operations.
The Roundtable also serves as an adjunct to the Inspection and Evaluation
Committee of the PCIE/ECIE.




vi                Inspection and Evaluation Committee
Introduction
Concern over the government’s travel card program arose at a May 1, 2001,
Congressional hearing before the U.S. House of Representatives Committee on
Government Reform, Subcommittee on Government Efficiency, Financial
Management and Intergovernmental Relations. The General Services
Administration (GSA) testified that as of March 2001, Federal employees were
delinquent in paying more than $25 million on their travel card accounts.1 The
following chart shows some fairly recent delinquency rates of 12 Cabinet-level
agencies.

       Figure 1




         Source: U.S. Department of Labor.


The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires
government employees to use the government travel charge card (travel card) on
official business. However, according to a 2002 amendment to the Federal Travel
Regulation,2 employees who travel 5 times or less a year are now exempted from
the mandatory use of the travel card although agencies still have the discretion to
issue a card to infrequent travelers.

1
  “Federal Workers Misuse Travel Charge Cards,” Government Executive Magazine,
  May 2, 2001.
2
  Federal Register, September 13, 2002.

           PCIE            Fall 2003                ECIE                         1
I
   n 1998, GSA awarded a task order contract to four service providers (Citibank,
   Bank One, NationsBank [now Bank of America] and U.S. Bank) to provide
   travel card services. The GSA contracts are
effective from November 30, 1998, through
November 29, 2003, with five one-year options to
                                                          The individual
renew. The contracts set up a point system that allows cardholder, not the
Federal agencies to receive rebates from the service          agency, is
providers based on travel card use. Each Federal             personally
agency chooses one of the four service providers to       responsible for
provide the services.                                      all travel card
The individual cardholder, not the agency, is
                                                                 payments.
personally responsible for all travel card payments.
Various government regulations and policies, including the Federal Travel Regulation
and ethical standards, require that cardholders pay their travel card bills in a timely
manner and that the travel card not be used for personal purposes. Agency
employees who have been issued travel charge cards have a responsibility to pay
for all charges made with those cards and to use the cards only for official
government travel. Cardholder agreements usually state that by using the card or
signing the agreement, the holder enters into a contractual agreement with the
service provider to pay for the charges incurred and to use the travel card only for
official travel and official travel-related expenses. Employees are reimbursed by
their agencies for travel expenses and are expected to use the reimbursement to
pay their travel card bills.

                              When a cardholder fails to make payments and
                              continual delinquencies cause the service provider to
                              cancel or suspend a travel card, an agency may be
                            harmed. Employees who are unable to travel because
                           of a loss of a card disrupt agency operations, and
                          employees in positions of responsibility who have accrued
                          considerable debt are vulnerable to failing suitability
                           standards or succumbing to corruptive influences.
                            Moreover, under future contract modifications, an
                            agency could lose hundreds of thousands of dollars in
                           rebates if a high level of written-off delinquencies is
                          expected to continue.

2                        Inspection and Evaluation Committee
PURPOSE
The primary purpose of this guide is to identify
and determine the control practices used by
agencies for monitoring the Federal Travel Card
Program as well as to provide useful information to
organizations that administer the program. At the
time of our survey of the IG community, 28 Federal
OIGs had performed evaluations or audits on the Federal Travel Card program.
(See Appendix B for a listing of the OIG reports.)

The primary objectives of a travel card review are to assess (1) compliance with
laws and regulations, (2) efficiency of operations, and (3) adequacy of internal or
management controls to help prevent fraud, waste and abuse by cardholders or
others who attempt to manipulate the program. We were able to identify common
weaknesses and best practices among the agencies reviewed. The common
problems identified can apply to all agencies regardless of whether they contract
with the same service provider or organize their travel card programs in the same
manner.

In addition to discussing common weaknesses and best practices, this guide
provides information on the pertinent terms and conditions of the GSA Master
Contract, guidance that should be consulted in assessing a travel card program,
the GAO’s Standards for Internal Control, and the roles and responsibilities of
the parties involved in the travel card program.




           PCIE            Fall 2003                ECIE                         3
GSA MASTER CONTRACT
In 1998, GSA awarded contracts to four service providers to provide travel card
services. Each Federal agency then issued a task order to one of the four service
providers under the Master Contract. The Master Contract has specific terms
and conditions which the service providers must adhere to for the suspension and
cancellation of the card.

        Suspension – Under the terms of the Master Contract, Section CB.17,
        the service provider may suspend an account if payment of the undisputed
        principal amount has not been received 61 calendar days from the closing
        date on the statement of account in which the charge appeared. Suspended
         accounts are reinstated by the service provider upon payment of the
        undisputed principal amount.

        Cancellation – Under the terms of the Master Contract, Section CB.18,
        the service provider may initiate cancellation of an individually billed charge
        account if:

            1. It is past due 120 days from the closing date on the statement of
               account in which the charge appeared, or

            2. The account has been suspended two times during a 12-month
               period and is past due again, or

            3. The card is used for other than authorized purchases and
               cancellation is approved by the Agency/Organization Program
               Coordinator (A/OPC).

Once cancelled, it is difficult to get the travel card reinstated. To have the card
reinstated, the employee is required to undergo a credit check (which is initially
waived as a courtesy to the government). When an account has an outstanding
balance that is 180 days old, by Federal regulation that account is written off as a
credit loss to that specific service provider and is referred to a collection agency
or attorney. Service providers consider delinquency rates when deciding whether
or not to assume a Federal agency’s contract. Therefore, a high delinquency rate
could diminish the available pool of contractors for an agency.

4                        Inspection and Evaluation Committee
FEDERAL LAWS AND GUIDANCE
In addition to the GSA Master Contract, agencies can find guidance on travel
card programs in the laws, regulations and policies that concern employee travel.
In particular, agencies should review the following when assessing their travel card
programs:

     The Travel and Transportation Reform Act of 1998
      (Public Law 105-264)

     Federal Travel Regulation, at 41 Code of Federal Regulations (C.F.R.),
      Chapter 301

     Title 5, C. F. R, Part 2635, Standards of Ethical Conduct for Employees
      of the Executive Branch

     Agency directives pertaining to travel cards


GAO’S STANDARDS FOR INTERNAL CONTROL
The Federal Manager’s Financial Integrity Act of 1982 requires the GAO to issue
standards for internal control in government. The GAO standards define the
minimum level of quality acceptable for internal control in government and provide
the basis upon which internal control is to be evaluated. (Standards for Internal
Control in the Federal Government. November, 1999, GAO/AIMD-00-
21.3.1.)

The GAO lists the following five standards for internal control:

         Control Environment – Management and employees should
          establish and maintain an environment throughout the organization that
          sets a positive and supportive attitude toward internal control and
          conscientious management.

         Risk Assessment – Internal control should provide for an assessment
          of the risks the agency faces from both external and internal sources.
           PCIE             Fall 2003                ECIE                         5
           Control Activities – Internal control activities help ensure that
           employees carry out management directives. The control activities
           should be effective and efficient in accomplishing the agency’s control
           objectives. Control activities in a government travel card program
           include a wide range of diverse activities such as approvals,
           authorizations, verifications, reconciliations, reviews, and the creation
           and maintenance of related records that provide evidence of execution
           of these activities.

           Information and Communication – Employees should record and
           communicate information to management and others within the entity
           who need it in a form and within a time frame that enables them to
           carry out their internal control (and other) responsibilities.

           Monitoring – Internal control monitoring should assess the quality of
           performance over time and ensure that audit and other review findings
           are promptly resolved.

ROLES AND RESPONSIBILITIES
Finally, it is important that everyone involved understand his or her roles and
responsibilities in the management of each agency’s travel card program.

       Departmental or Agency Travel Card Program Coordinator
       (A/OPC) – The departmental coordinator is responsible for developing
       and disseminating department or agency-wide travel card policies and
       procedures, monitoring card use, disputes and delinquencies, and
       representing the agency on government-wide travel card program
       workshops and committees. The agency’s overall travel card program
       coordinator is usually located in the agency’s Office of the Chief Financial
       Officer. The departmental coordinator also serves as the liaison between
       the A/OPCs, the issuing service provider, and GSA.

       Agency/Organization Program Coordinator – The A/OPC serves as
       an intermediary between the cardholder, the service provider, and the
       agency’s management. Each operating unit or bureau within a Department


6                      Inspection and Evaluation Committee
or agency usually has an A/OPC. The A/OPC is responsible for (1)
educating cardholders on the proper use of travel cards and obtaining
each employee’s acknowledgment statement certifying that he/she
understands the government’s travel card policies and procedures; (2)
implementing agency policy related to the travel card program; (3)
reviewing monthly reports of travel card activity from the service provider;
(4) reporting possible card misuse to employees’ supervisors and/or other
appropriate officials; and (5) following up on delinquent cardholder
accounts and travel card misuse. The A/OPC also generally serves as the
focal point for answering questions, coordinating applications, and issuing
and destroying cards.

Supervisors – Supervisors are responsible for holding employees
accountable for paying their travel card bills on time and taking notice
when employees are delinquent or misuse their cards. They also should
initiate and/or ensure that suitable administrative action is taken against
cardholders who have misused the travel card.

Travel Cardholder – The cardholder is responsible for understanding
and adhering to his or her agency’s internal policies and procedures
regarding the use of the card and signing the cardholder agreement.
Cardholder responsibilities also include record keeping, reconciliation,
paying his or her monthly bill on time and in full, reporting lost/stolen cards,
and notifying the service provider within 60 days of a disputed charge.




   PCIE             Fall 2003                  ECIE                          7
Common Problems                                                                           found that the lack of guidance p


                                  &Best Practices
                                                                                          employees being treated differen
                                                                                          monitored their account. In resp
                                                                                          issued specific instructions for A
 The Offices of Inspector General have identified the following list of the               and misuse. The instructions inc
 common problems involving the travel card program along with several best                may indicate misuse and when
 practice suggestions:                                                                    supervisor should be notified of
                                                                                          Figure 2 for the list of transaction
                                                                                          could indicate possible misuse
 LACK OF ADEQUATE WRITTEN POLICIES AND                                                    exhaustive list and A/OPCs shou
 PROCEDURES AND TRAINING                                                                  travel rules and regulations in ord

 Educating cardholders, coordinators, and management about their responsibilities         Furthermore, several OIGs repor
 under the government travel card program is important. The OIGs found a great            provide formal training for new ca
 variation among their agencies with regard to written policies, procedures, and          cardholders. As such, cardhold
 training provided to their employees. Each service provider includes a cardholder        become delinquent or misuse
                            agreement when it mails the travel card to the employee.      Administration has on-line traini
                            Many agencies require that employees, as a condition
                            for program participation, certify that they have read,
                            understand, and agree to abide by the regulations.
                            However, employees need additional guidance to ensure
                            they are aware of their responsibilities under the program,
                            the prohibition against personal use of the travel card,
                            and the disciplinary actions that may be taken for
                            inappropriate use of the card.

 Written policies and procedures are a critical element in any agency’s travel card
 program. They are needed to provide guidance and ensure that the program is
 administered consistently. Without written policies and procedures, there is an
 increased risk for inconsistencies, abuse or misuse of the travel card, and higher
 delinquency rates. The policies and procedures should be clear, up-to-date, and
 distributed or made available to all employees who participate in the program.

 In addition to specific guidance for program participants, the policies and
 procedures should also include guidance for A/OPCs. This guidance should outline
 the coordinators’ roles and responsibilities and offer red flags when they review
 monthly reports from the service provider or card-issuing company. Labor OIG

 8                        Inspection and Evaluation Committee
s   found that the lack of guidance provided to A/OPCs resulted in
    employees being treated differently depending on which A/OPC policies and
                                                                             “Written
    monitored their account. In response to the OIG’s report, Labor procedures are
    issued specific instructions for A/OPCs managing delinquencies
    and misuse. The instructions included a list of transactions that
                                                                             a critical
    may indicate misuse and when and how an employee and/or                 element in
    supervisor should be notified of misuse and delinquencies. (See any agency’s
    Figure 2 for the list of transactions or patterns of transactions that  travel card
    could indicate possible misuse. Please note that this is not an         program.”
    exhaustive list and A/OPCs should be familiar with the general
    travel rules and regulations in order to detect inappropriate transactions).

    Furthermore, several OIGs reported that their respective agencies did not
    provide formal training for new cardholders or refresher training for current
    cardholders. As such, cardholders rarely receive guidance unless they
    become delinquent or misuse their cards. The General Services
    Administration has on-line training available for the travel card program.3

    Figure 2


               Examples of Transactions That Could Indicate Misuse or Abuse

         1.    ATM transactions, usually at establishments near a person’s home or office,
               without travel-related charges. For example, ATM charges are posted to the
               account absent an accompanying airline or hotel charge.

         2.    Restaurant charges or other transactions in out-of-town location with no
               related hotel charges.

         3.    More than one airline charge, and for the same amount and transaction date
               (e.g. the employee may have purchased an airline ticket on the travel card for a
               spouse, friend).

         4.    Excessive cash withdrawals.

         5.    Credit card charges that are not incidental to government-related travel.
               (Please refer to the GSA SmartPay A/OPC Survival Guide, Merchant Category
               Codes, and agency policies for further guidance.)

     3
     www.fss.gsa.gov/webtrainingdocs/traveltraining/index.cfm
                  PCIE              Fall 2003                  ECIE                           9
                                                 The course can be accessed by
                                         any Internet user, requires about an hour
                               to complete and concludes with a quiz. Participants
                    may print a certificate to demonstrate they have successfully
           completed the course. Agencies could use this course, or develop their
own course, to ensure travel cardholders are informed of the requirements of the
travel card program. Training could be mandatory for all new cardholders and
refresher training could be provided to existing cardholders on a periodic basis.
Travel card issues could also be included in the agency’s orientation programs or
ethics training.




In addition to your agency’s travel policy, you should comply with the following
guidelines:

         use your Government Travel Card to pay for official travel expenses.

         obtain travel advances for official travel through an ATM if authorized
         by your agency.
         track your expenses while on travel so you have accurate information
         for filing your travel claim.

         file your travel claim within 5 days after you complete your trip or
         every 30 days if you are on continuous travel.
         submit payment in full for each monthly bill.

         follow your bank’s dispute process for charges which are incorrect.

         contact your bank’s customer service number if you have questions
         about your monthy bill.
         be aware that misuse of the card could result in disciplinary actions by
         your agency.

10                      Inspection and Evaluation Committee
    Reminders...                                 DO
            use your Government Travel Card for personal use not
            related to official government travel.
            obtain travel advances through the ATM which exceed
            your expected expenditures for a trip.

           obtain travel advances through the ATM unless you are
           on travel or will be on travel shortly.

           allow your monthly bill to become overdue.
           wait for receipt of your monthly bill to file your travel claim.

            forget that the card is issued in your name and payment
            is your responsibility.

           make late payments because this could result in sus-
           pension or cancellation of your card.


Agencies may also want to develop materials such as a “Do’s and Don’ts” list or
“Frequently Asked Questions” to place on their websites or give to employees to
use as a reference source. In addition to employees knowing their responsibilities,
they should be aware that their transactions are being reviewed, and what actions
will be taken if they misuse their cards or are delinquent in paying their bills.

Finally, to implement effective discipline for charge card delinquents and/or
employees who misuse their travel cards, each agency needs to develop and
disseminate a written policy that outlines specific disciplinary actions, ranging from
oral reprimand to dismissal.




           PCIE             Fall 2003                 ECIE                        11
 Best Practices Summary
     √   Develop written policies and procedures that include individual
         cardholder responsibilities, service provider responsibilities and
         the oversight responsibilities of A/OPCs, immediate supervisors
         and management. The procedures should also cover what to do
         in cases of suspected fraud, cancellation procedures for terminated
         employees, employee penalties for abuse or misuse of the travel
         card, and charge card privilege reinstatement.

     √   Require employees to take an on-line training course on the travel
         card program. Current cardholders, as well as new cardholders,
         should complete the course. Training should be recurring; e.g.,
         annually and upon reinstatement of a suspended or terminated
         card. It should also provide information tailored for supervisors
         and A/OPCs.

     √   Provide information on the travel card program during employee
         orientation programs and ethics classes.

     √   Develop and distribute informative materials on the travel card
         program to all employees to use as a reference, such as a
         “Do’s and Don’ts” list and “Frequently Asked Questions.”
         The information should be current and highlight any program
         changes.




12              Inspection and Evaluation Committee
A LARGE NUMBER OF
INACTIVE, BUT OPEN ACCOUNTS
Depending on an agency’s criteria,
employees who travel infrequently may still
be issued travel cards. For instance,
Commerce’s current policy is to issue a
card to all employees who are expected
to travel at least 2 times a year.
Employees who are exempt are expected
to use a personal credit card to pay their
travel expenses.

While there is no cost to Federal agencies for maintaining open accounts, the risk
for loss or misuse of the travel card exists. Education OIG reported that many
employees had travel cards, but they did not frequently travel. It also identified six
cardholders from its sample of employees who did not conduct any official travel
but made personal purchases and ATM withdrawals—totaling $32,648 over a
two-year period—with their travel card. Justice OIG also found that some of the
delinquencies contained in its sample were made by cardholders who traveled
infrequently and were unable to resist using the available credit to make ATM
withdrawals or inappropriate purchases. According to the OIG, one Justice
employee whose delinquency was in excess of $8,000, including personal charges
and ATM withdrawals, told her A/OPC that she voluntarily called the service
provider and canceled her travel card because of her inability to control her
spending.

Restricting distribution of travel charge cards is one way to reduce delinquencies
and curtail misuse. As mentioned previously, a recently published amendment to
the Federal Travel Regulation4 exempts employees who travel 5 times or less a
year from the mandatory use of the travel card. While agencies still have the
discretion to issue a card to infrequent travelers, they might want to assess the
travel requirements of their employees and consider not issuing cards to employees
who rarely travel or, in some cases, consider having administrative staff maintain
custody of travel cards when employees are not in travel status. Another option is
4
    Federal Register, September 13, 2002 Amendment 108.
              PCIE             Fall 2003                  ECIE                    13
 to place minimal limits on cards of infrequent travelers to be increased only when
 travel is authorized. Commerce OIG noted that one of its departmental bureaus
 gives its infrequent travelers a $1 balance on their cards until travel is authorized.

 In addition to the large number of inactive accounts due to infrequent travelers,
 several OIGs reported that travel card accounts are not being cancelled in a
 timely manner when staff separate from the agency. For instance, OPM’s OIG
 found that 46 terminated
 employees still had active
 cards at the time of its           “Updating employee information
 evaluation. Two of those 46        on a regular basis improves the
 employees used the cards           accuracy of travel card reports,
 after their termination dates.
 Defense OIG also found
                                    which is important to effective
 1,276 open accounts for            monitoring of travel card
 personnel no longer                accounts.”
 assigned to an Air Force
 base and 15 of the accounts
 had delinquent balances totaling $9,268. A Defense OIG review of cardholder
 listings and personnel records at another Air Force base indicated that 19 of 30
 cardholders were no longer assigned to the base. One of these cardholders had
 purchased seven airline tickets and made local gas station charges after separating
 from the Air Force. In addition, Education OIG reported that an employee who
 left the agency in 1994 incurred charges totaling $7,075 from January 1999 through
 May 2000. Charges totaling $3,665 had not been paid at the time the card was
 canceled.

 Updating employee information on a regular basis improves the accuracy of travel
 card reports, which is important to effective monitoring of travel card accounts.
 A Justice OIG report highlighted the FBI’s practice of sending the service provider
 a monthly update of employee name and address changes from its personnel
 records, which the service provider uses to update its records. This saves the
 A/OPCs from monitoring or tracking down employees who no longer work in
 their divisions. In 2001, Defense OIG reported that its travel card company
 provided a list of inactive accounts to its A/OPCs to review for potential travel
 account cancellation or deactivation. This resulted in the cancellation of over
 115,000 travel cards and the deactivation of an additional 112,000 travel cards.

14                        Inspection and Evaluation Committee
In addition, when an employee transfers to a different office within a division/
component, the employee normally maintains the same travel card. Transfers can
result in a gap in monitoring coverage. Without updates of personnel changes, the
lack of monitoring and follow-up by the employee’s A/OPC increases the likelihood
that the employee’s delinquency will continue to the point where the card is canceled.
Updating name and address changes monthly would improve the accuracy of
travel card reports, thus reducing delinquencies.

Best Practices Summary
                 √       Review inactive accounts and determine if some should
                         be closed.

                 √       Assess travel requirements and consider not issuing cards
                         to employees who travel infrequently.

                 √       Consider having administrative staff maintain custody of
                         travel cards when employees are not in travel status.

                 √       Consider placing a minimal dollar limit on travel cards of
                         infrequent travelers when they are not in travel status.

                 √       Establish a regular schedule to send a list of all open travel
                         accounts to supervisors to review and to notify the
                         A/OPCs of accounts to be closed.

                 √       Send the service provider a monthly update of names
                         and address changes from the personnel system.




           PCIE             Fall 2003                 ECIE                         15
                √       Establish a procedure to receive timely notice of all staff
                        separated from the agency so accounts can be canceled
                        upon separation.

                √       Ensure that employees turn in their travel cards as part of
                        their checkout procedures when leaving an agency, and
                        make sure that each employee’s travel card bill is paid
                        before settling any outstanding payments due the
                        employee.

                √       When an employee transfers within an organization, ensure
                        that A/OPC oversight authority is transferred if
                        appropriate. If there are known problems with that
                        employee’s use of the travel card, the new A/OPC should
                        be notified of the need for extra vigilance.



INEFFECTIVE BLOCKING
OF MERCHANT CATEGORY CODES

 Service providers can block certain Merchant Category Codes (MCC) on travel
 card accounts thereby preventing employees from using the travel cards at
 inappropriate vendors. However, not all agencies have implemented this feature.
 With the use of MCC blocks, a
 significant improvement in
 preventive controls over travel card
 charges can occur. FDIC initiated
 automated blocking/prohibition of
 vendor codes during 2001 to
 prevent non-travel related
 purchases with the card. According
 to FDIC’s OIG, the control eliminated much of the earlier years’ inappropriate
 travel card activity that resulted from employees mistaking the travel card for
 another personal charge card and using the card unintentionally. In addition,
 Education’s OIG found that in FY 2001, 618 charges totaling $93,642 were
 made to MCCs that were subsequently blocked.

16                      Inspection and Evaluation Committee
Commerce’s OIG also found numerous instances where employees used their
travel card at retail establishments not normally associated with official travel
expenses, including department stores and grocery stores. It also found one
employee who charged dog kennel fees to the travel card. As a result, agencies
might want to consider such controls over travel card charges.



Best Practices Summary
                √        Work with the service provider to place appropriate
                         and effective MCC blocks on employee travel cards.


LATE IDENTIFICATION OF CARD MISUSE AND
DELINQUENCY, AND FAILURE TO PROVIDE TIMELY
NOTIFICATION TO SUPERVISORS
When an employee’s account becomes delinquent or
when an employee misuses the card, early identification
and resolution of the problem are important. A/OPCs
should notify supervisors in a timely manner so that
supervisors can determine the reasons for the misuse or
delinquency, and encourage the cardholder to pay the
debt. Timely notification is especially important in cases
of delinquency. When the cardholder’s supervisor is
not notified in a timely manner, the delinquent amount
may become so great that the cardholder cannot readily pay it. For example,
Justice OIG reported that one of its employees continued to accrue charges over
a period of at least four months, resulting in an unresolved delinquency of $23,139.
A more timely referral to the supervisor might have resolved the matter and reduced
the amount owed.

In addition, Labor OIG reported that an employee spent $1,144 at automatic fuel
dispensers and service stations near his duty station. He did not incur any other
travel-related expenses. The A/OPC did not notify the employee or the agency

           PCIE            Fall 2003                 ECIE                       17
until the employee spent $179 at a car dealership. By this time, the employee was                        √       A/OPC
already $770 past due on his government travel card.                                                             cardhold
                                                                                                                 possible
When delinquencies occur, a supervisor’s early intervention may reduce the risk                                  addition
of the employee’s card privileges being suspended, which can occur when the
employee fails to make a payment within 61 days from the closing date on the                             √       Supervi
statement of account in which the charge appeared, or canceled, which can occur                                  the card
at 120 days from the closing date on the statement of the account in which the                                   immedia
charge appeared.

Commerce OIG found several cases where supervisors were not notified of
delinquencies and/or bounced checks before employee cards were canceled by
                                                                                         FAILURE TO MONITOR
the service provider and accounts sent to a collection agency. When an employee’s        FOR MISUSE AS WELL
job requires travel, suspension or cancellation of the employee’s travel card makes
employee travel more complicated for the component.                                      Several OIGs found that A/OPC
                                                                                         card use for delinquencies, not m
The Justice OIG reported that delinquencies should be referred to the cardholder’s       periodic reports listing delinque
supervisor well before possible suspension of the card and before additional costs       identify delinquencies than m
can be incurred by the cardholder. Unfortunately, many of the A/OPCs wait until          delinquencies, employees who m
accounts are at least 90 days past due to refer delinquencies to the cardholder’s        purposes, will not be detected un
supervisor. Early notification to supervisors can also result in quicker action by the
employee to pay his travel card bills and thus preclude or reduce the need to take       Labor OIG found that while A/O
disciplinary action against the employee for more serious payment problems.              in how they identified it. For ex
                                                                                         names, such as department store
                                                                                         supervisor if the charge was ove
Best Practices Summary                                                                   for improper store names, look
                                                                                         station and notified the agency re
                 √       Both program coordinators and supervisors review
                         monthly travel card activity reports for their office to        Given that supervisors are the mo
                         identify questionable or inappropriate charges.                 status, Commerce OIG reported
                                                                                         with the service provider to ensu
                 √       A/OPC suspends or refers misuse or questionable                 office directors and/or superviso
                         charges or practices to supervisors as soon as they are
                         detected.




18                       Inspection and Evaluation Committee
                √        A/OPC puts on hold further card use and notifies the
                         cardholder’s supervisor at the 60-day point, well before
                         possible service provider suspension of the card and before
                         additional costs can be incurred by the cardholder.

                √        Supervisors discuss misuse or questionable charges with
                         the cardholder as soon as they are identified and ensure
                         immediate follow-up by the cardholder to pay the bill.



FAILURE TO MONITOR TRANSACTIONS
FOR MISUSE AS WELL AS DELINQUENCIES

Several OIGs found that A/OPCs in their agencies were only monitoring travel
card use for delinquencies, not misuse. Because the service providers send out
periodic reports listing delinquent cardholders, it is much easier for A/OPCs to
identify delinquencies than misuse. However, if an A/OPC only monitors
delinquencies, employees who misuse their card for personal or other inappropriate
purposes, will not be detected unless they became delinquent.

Labor OIG found that while A/OPCs did monitor for misuse, they varied greatly
in how they identified it. For example, one A/OPC looked for improper store
names, such as department stores, and notified the employee and the employee’s
supervisor if the charge was over $100. Another A/OPC, in addition to looking
for improper store names, looked for use in and around the employee’s duty
station and notified the agency regardless of the amount.

Given that supervisors are the most knowledgeable about employees official travel
status, Commerce OIG reported that departmental officials have been working
with the service provider to ensure that travel card statements are sent directly to
office directors and/or supervisors in addition to the A/OPCs.




           PCIE             Fall 2003                ECIE                       19
Best Practices Summary
        √       Give the supervisors access to service provider reports so that
                they can monitor accounts for misuse.

        √       Ensure that supervisors or persons who approve travel vouchers
                are also reviewing the related travel card charges.

        √       A/OPCs can flag misuse from the various reports available from
                the service providers and perform periodic reviews of travel card
                use to identify misuse.

        √       Create an objective standard, such as a checklist, for A/OPCs to
                use when identifying misuse to ensure that all employees are treated
                equally. The checklist should contain the types of transactions or
                patterns of transactions that warrant contacting an employee or
                an employee’s supervisor, or checking an employee’s travel
                voucher to ensure that the expenses were incurred during official
                travel.



NOT KEEPING WRITTEN RECORDS OF
REFERRALS AND SUPERVISORY FOLLOW-UP
A/OPCs should maintain records of which employees were referred to their
supervisors for travel card delinquency and misuse, and require written feedback
from the supervisor or employee. Specifically, the supervisor or the cardholder
should provide a written explanation of the reason(s) for the delinquency or misuse
and an accounting of how the situation will be resolved. Commerce OIG reported
that some of its A/OPCs and bureau heads were unable to provide the OIG with
information on which employees had been referred to supervisors for delinquency
or possible misuse and what actions the supervisors had taken in response to the
referral.




20                      Inspection and Evaluation Committee
Records of referrals and written feedback not only provide a check on the
supervisors to ensure that they are following up on the situation, they also provide
a method for determining how well A/OPCs are monitoring transactions. Written
records also are important if the situation warrants disciplinary action against a
cardholder or canceling a travel card due to repeated misuse.

The Social Security Administration’s OIG reported that when an employee’s
travel card becomes delinquent, the agency sends a notification to the
cardholder to pay the delinquent account. In addition, the appropriate Deputy
Commissioner and travel-authorizing official are informed. The delinquency
notification is then placed in the employee’s file for one year. According to the
Social Security Administration OIG, these letters are effective in getting
employees to pay their delinquent accounts.



Best Practices Summary
        √       Keep written records of the employees who were referred to
                supervisors for actual or questionable travel card misuse and
                delinquency, and the circumstances surrounding the referral.

        √       Require written follow-up from either the supervisor or the
                cardholder explaining how and why the card was used
                inappropriately and how the situation has been handled.

        √       Require the A/OPC to prepare a monthly report on the results
                of his/her review of monthly activity to the A/OPC’s supervisor
                to help determine how well the A/OPC is monitoring
                card usage and following up on problems.




            PCIE           Fall 2003                 ECIE                       21
INAPPROPRIATE ATM USE
The Automated Teller Machine (ATM) cash
advance feature of the travel card program
allows travelers to obtain cash advances to
pay for official expenses that cannot be
charged to the card. In addition, the Federal
Travel Regulation requires Federal agencies
to minimize the use of cash travel advances.
ATM withdrawals are allowed only when
authorized for official travel and are limited
to the estimated amount of the traveler’s
meals and incidental expenses, such as taxis, and other miscellaneous expenses
that cannot be charged. However, some OIGs found that employees used their
travel card for ATM cash advances when not on official travel while others obtained
excessive cash advances for official travel.

Justice OIG identified an employee who had made 33 inappropriate ATM
withdrawals over a nearly four-month period. Another Justice employee
inappropriately withdrew a total of $3,321 in eight withdrawals over a five- week
period. Commerce OIG also identified several cardholders who had withdrawn
cash advances when not on official travel or obtained excessive cash advances for
official travel. Two of these employees withdrew significant amounts: one
cardholder obtained advances totaling $20,600 and acknowledged that he routinely
took advances as “insurance against potential delays in receiving reimbursement”
for his travel vouchers. Another employee had withdrawn $14,300 in cash
advances not related to official travel. In addition, Transportation OIG reported
that 48 of 95 employees from its sample withdrew cash in excess of their travel
needs or when they were not on travel. These employees made over 2,000 excess
cash withdrawals totaling about $361,000 over a 1-year period. One employee
withdrew about $50,000 in cash over a 12-month period but was not on official
travel.

Unauthorized ATM withdrawals often lead to delinquencies because employees
do not receive reimbursement for those transactions and may not have personal
funds available to pay the bills. However, because allowable advances vary from


22                      Inspection and Evaluation Committee
trip to trip, it is not usually feasible to place physical controls over ATM withdrawals
to ensure that employees are only withdrawing the correct amounts. It is also
difficult to initiate controls to ensure that withdrawals are made only when a
cardholder is in travel status. Therefore, ATM withdrawals are subject to abuse.

Commerce OIG reported that the established ATM limit in one bureau exceeded
the needs of most of the cardholders. The FDIC OIG noted its agency employees,
through FDIC’s contract with its service provider, are limited to ATM withdrawals
of $500 total per week. FDIC also monitors travelers making more than 10 ATM
withdrawals in any month to assess whether cash withdrawals are reasonable
under the employee’s travel-related assignments. Transportation has now revised
its policy concerning cash withdrawals setting a limit of $400 per month. Exceptions
to the cash limit can easily be obtained in those cases where the limit is not sufficient
to cover travelers’ reasonable cash needs.



Best Practices Summary
        √        Analyze employee’s patterns of delinquencies and inappropriate
                 ATM access to determine whether the benefits of ATM use
                 outweigh the costs (delinquencies stemming from ATM use,
                 as well as ATM fees and surcharges associated with ATM
                 withdrawals, both authorized and unauthorized). If the costs
                 outweigh the benefits, agencies should eliminate ATM access.

        √        Place ATM dollar limits on travelers’ cards.




            PCIE             Fall 2003                  ECIE                         23
I NSUFFICIENT OR I NCONSISTENT DISCIPLINE FOR
EMPLOYEES WHO DO NOT PAY THEIR BILLS ON TIME
OR KNOWINGLY MAKE INAPPROPRIATE CHARGES

Managers need to communicate and
enforce a zero tolerance policy for travel
card delinquencies and abuses. USAID
OIG reported that at the time of its 2000
audit, no disciplinary action had been
taken against a USAID employee for
misuse of a travel card despite numerous
incidences of abuse. In addition, Labor
OIG reported that its A/OPCs sometimes cancel travel cards because of repeated
misuse. However, card cancellation alone may not be viewed as a deterrent. To
clearly demonstrate management’s intent to control delinquencies and misuse,
disciplinary action against employees who refuse to pay their bills or knowingly
make inappropriate charges may be necessary. Employees that make inappropriate
charges are misusing their travel card privileges for personal gain. In addition,
employees who do not pay their travel card bills in a timely manner are not meeting
their employee obligations and violating the terms of the participation agreement.

To implement effective discipline for charge card delinquencies and employees
who misuse their travel cards, agencies should develop guidelines for managers on
how to apply the Standards of Ethical Conduct for Employees of the Executive
Branch to unauthorized use of travel cards and/or delinquency. Agencies might
also want to develop and disseminate a written policy or table of penalties that
outlines specific disciplinary actions ranging from oral reprimand to dismissal, as
well as guidance on mitigating factors that would be considered in determining
specific disciplinary action for an individual. To be effective, the disciplinary action
needs to be appropriate to the situation and should be consistently applied. Justice
OIG reported that one of its components incorporates specific disciplinary action
in its travel card guide. For example, when a first offense occurs, the supervisor
may issue a written reprimand, and when a second offense occurs, the supervisory
should consider suspending the employee from duty without pay for one to three
days. Only when the third offense occurs is the supervisor required to take action,
by suspending the employee for five days.
24                        Inspection and Evaluation Committee
Agencies should also develop a policy requiring automatic investigative referrals
to OIGs or internal affairs units for travel card misuse as well as serious unresolved
delinquencies. There are various reasons to implement a mandatory referral policy.
First, this action may help demonstrate to employees that a zero tolerance policy
is being enforced. In addition, this policy would help hold first-line supervisors
accountable for taking action and alert management to systemic or serious problems.
Finally, an investigation of an employee who fails to pay bills may uncover evidence
of deeper problems or a vulnerability to corruptive influences.


Best Practices Summary
        √        Apply appropriate and consistent discipline for employees who
                 are delinquent or misuse their travel cards.

        √        Develop and disseminate a written policy that outlines specific
                 penalties or disciplinary actions as well as mitigating factors that
                 supervisors are to consult in determining what action should
                 be taken against an employee who does not abide by the rules for
                 the travel card program.

        √        Alert upper management in instances where the first-line supervisor
                 has not resolved delinquencies or serious or frequent misuse.

        √        Develop agency guidelines for managers on how to apply the
                 Standards of Ethical Conduct for Employees of the Executive
                 Branch.

        √        Implement a mandatory referral policy that covers when
                 employees’ delinquency or misuse must be referred to the OIG
                 and/or the agency’s internal affairs unit.




            PCIE            Fall 2003                 ECIE                        25
USING CASH ADVANCES TO FUND THE TRAVEL OF
EMPLOYEES WHO HAVE LOST
THE USE OF THEIR CARDS
THROUGH DELINQUENCY OR
MISUSE
Some employees whose cards have been cancelled or
suspended due to non-payment or misuse are still required
to travel as part of their job. While an employee may use a
Government Travel Request to pay for airline tickets or other
types of transportation, employees who have lost their travel card privileges
should not be given cash advances for lodging and incidental expenses. However,
the practice of denying travel advances to employees whose travel cards have
been canceled is not uniform. For example, Justice OIG reported that while its
agency’s policy calls for employees who are unable to use their travel cards because
of delinquency to pay their travel expenses with personal cash or credit cards, it
found that not all of the agency’s components followed this policy. Providing cash
advances not only counteracts the benefits derived by the agency from having a
travel charge card program in place, but it also fails to penalize employees for
irresponsible actions and it reduces the incentive for employees to avoid having
their cards canceled.



Best Practices Summary
        √       Require employees who cannot use their travel cards due to
                delinquency or misuse to pay their lodging and incidental
                expenses with cash or personal credit cards.




26                      Inspection and Evaluation Committee
Conclusion
 Our discussion and presentation of common problems and best practices involving
 the use of government travel cards addresses crosscutting or government-wide
 issues of fraud, waste and abuse. While this discussion may not be exhaustive, it
 is an excellent place for other OIGs and program managers to start when evaluating
 their own agency’s travel card program. We believe that by adopting these best
 practices, Federal agencies can strengthen their travel card programs and reduce
 travel card misuse and delinquency.

 A good internal control environment requires that the agency understand the likely
 vulnerabilities and risks so that it can clearly define key areas of authority and
 responsibility and establish appropriate lines of reporting. Written policies and
 procedures are critical elements of a well-defined control environment. Without
 written policies and procedures, there is an increased risk for inconsistencies in
 the administration and oversight of the travel card program; increased risk for
 abuse or misuse of the travel card; and increased risk for higher delinquency rates.

 Federal employees who have been issued travel charge cards have a responsibility
 to pay for all charges made with those cards and to use the cards only for official
 government travel. When cardholders fail to make payments and when continual
 delinquencies cause travel cards to be suspended or canceled, a Federal agency
 is harmed. Employees who are unable to travel because of a loss of a card disrupt
 an agency’s operations, and employees in positions of responsibility who have
 accrued considerable debt are vulnerable to failing suitability standards or
 succumbing to corruptive influences.

 Although the guide specifically addresses Federal programs, some agencies may
 want to examine their contractors’ travel card programs to determine whether
 there is any potential impact on the Government, e.g. charge-back of bad debts,
 and if so, include them in review programs.




            PCIE             Fall 2003                ECIE                       27
Acronyms
A/OPC       Agency/Organization Program Coordinator

ATM         Automated Teller Machine

ECIE        Executive Council on Integrity and Efficiency

Education   Department of Education

GAO         General Accounting Office

GSA         General Services Administration

MCC         Merchant Category Code

OIG         Office of Inspector General

OPM         Office of Personnel Management

PCIE        President’s Council on Integrity and Efficiency




28                  Inspection and Evaluation Committee
                 Appendix
                 To access the following reports and others, please visit the President’s Council
Coordinator
                 on Integrity and Efficiency (PCIE)/Executive Council on Integrity and Efficiency
                 (ECIE) Inspection and Evaluation Committee’s Directory of Purchase and
                 Travel Card Reports at www.ignet.gov.
nd Efficiency
                 I. Offices of Inspector General Reports

                 Appalachian Regional Commission
                 Memorandum Survey Report – Review of Credit Card and Travel Charge
                 Card Use, Report No. 02-18(H), March 11, 2002.

                 Consumer Product Safety Commission
                 Travel Charge Card Program, November 27, 2001.

                 Corporation for National and Community Service
                 Implementation of the Travel and Transportation Reform Act of 1998:
                 “Why Haven’t Federal Employees Been Held Accountable for Millions of
nt
                 Dollars of Federal Travel Expenditures?” May 1, 2001.
and Efficiency
                 Department of Commerce
                 Departmental Travel Expenses Need Better Control and Oversight, Report
                 No. EAD-7129-5-0001, September 1995.

                 Internal Controls for Travel Cards at OAR’s Environmental Technology
                 Laboratory Can Be Strengthened, Report No. BTD-14908-2-0001,
                 September 30, 2002.

                 Travel Card Program at National Weather Service Headquarters Needs
                 Additional Management Controls, Report No. BTD-14972-3-0001,
                 March 18, 2003.

                 Department of Defense
                 Summary of DoD Travel Card Program Audit Coverage, Report No. D-
                 2002-065, March 18, 2002.

                           PCIE             Fall 2003               ECIE                      29
Department of Education
Audit of Controls Over Government Travel Cards, Report No. ED-OIG/
ACN-A19B0010, March 27, 2002.

Department of Interior
Advisory Report on the Department of the Interior Travel Charge Card,
Report No. 2002-I-0048, September 30, 2002.

Department of Justice
Review of Travel Charge Card Delinquencies, Report No. I-2001-001,
March 30, 2001.

Travel Card Delinquencies, Report No. I-2001-008, August 2, 2001.

Department of Labor
Evaluation of the Department of Labor’s Travel Card Program – OCFO
and OASAM, Report No. 2E-07-001-0001, March 26, 2002.

Evaluation of the Department of Labor’s Travel Card Program – Office of
Inspector General, Report No. 2E-09-910-001, March 26, 2002.

Evaluation of the Department of Labor’s Travel Card Program –Pension
and Welfare Benefits Administration, Report No. 2E-12-001-0004,
March 26, 2002.

Evaluation of the Department of Labor’s Travel Card Program – Veterans’
Employment and Training Service, Report No. 2E-02-001-0001, March 26,
2002.

Review of Common Problems and Best Practices in Federal Agencies’
Travel Card Programs, Report No. 2E-98-599-0001, November 27, 2002.

Department of State
Review of the Domestic Travel Card Program, Report No. AUD-FM-03-
22, March 1, 2003.



30                   Inspection and Evaluation Committee
Department of Transportation
Audit of Use of Government Travel Charge Cards, Report No. FI-2003-
049, August 28, 2003.

Department of the Treasury for Tax Administration
Evaluation of the Risks and Costs Related to the Purchase and Control of
Airline Tickets, Report No. 082905, April 1, 1998.

Former Employees Had Access to Internal Revenue Service Credit Cards
and Computers, Report No. 2000-10-051, April 17, 2000.

The Travel Charge Card Program’s Controls Could be Enhanced, Report
No. 2002-10-183, September 23, 2002.

Federal Communications Commission
Report on Special Review of Employee Use of FCC Travel Cards, Report
No. 01-AUD-10-41, March 8, 2002.

Federal Deposit Insurance Corporation
FDIC Travel Card Program, Report No. 02-030, August 30, 2002.

Federal Election Commission
Review of Commission Travel FY 1995, Report No. OIG-96-02,
March 1, 1996.

Federal Housing Finance Board
Audit of the Federal Housing Finance Board Government Travel Card
Program, Report No. 02-A-02-ORM, January 27, 2002.

Federal Reserve Board
Report on the Audit of the Federal Reserve Board’s Government Travel
Card Program, Report No. A0011, January 28, 2002.

International Trade Commission
Evaluation of the Commission’s Travel Program, Report No. OIG-AR-03-
02, September 30, 2002.


         PCIE           Fall 2003             ECIE                     31
National Credit Union Administration
Travel Card Review, Report No. OIG-02-10, September 16, 2002.

National Endowment for the Arts
Review of NEA’s Internal Controls for Purchase and Travel Card
Expenditures, Special Review Report No. R-02-02, May 20, 2002.

National Labor Relations Board
Audit of Travel and Purchase Cards, Report No. OIG-AMR-36-02-02,
September 13, 2002.

National Science Foundation
Audit of NSF’s Travel Charge Card Program, Report No. 02-2-013,
September 25, 2002.

Office of Personnel Management
Report on Audit of Internal Controls Over the Office of Personnel
Management’s Travel Card Program, Report No. 4A-CF-00-01-102,
November 15, 2001.

Final Audit Report of the Office of Personnel Management’s Travel Card
Transactions, Report No. 4A-CF-00-01-103, April 8, 2002.

Peace Corps
Audit of Travel Card Program, Report No. IG-02-03-A, September 17,
2002.

Securities and Exchange Commission
Travel Management, Report No. 349, August 12, 2002.

Smithsonian Institution
Travel Card Program, Report No. A-01-10, June 28, 2002.




32                   Inspection and Evaluation Committee
Social Security Administration
Congressional Response Report, The Social Security Administration’s
SmartPay Program, Report No. A-13-02-22059, November 6, 2001.

Allegations of Inappropriate Pay and Travel Practices at the Philadelphia
Regional Office, Report No. A-13-02-22097, October 8, 2002.

U.S. Agency for International Development
Audit of USAID’s Internal Controls over its Government-Sponsored Travel
Card Program, Report No. 9-000-00-004-P, September 27, 2000.

II. General Accounting Office Reports

Travel Cards: Control Weaknesses Leave Navy Vulnerable to Fraud and
Abuse, Report No. 03-148T, October 8, 2002.

Travel Cards: Control Weaknesses Leave Army Vulnerable to Potential
Fraud and Abuse, Report No. 03-169, October 11, 2002.

Travel Cards: Air Force Management Focus has Reduced Delinquencies
but Improvements in Controls Are Needed, Report No. 03-298, December
20, 2002.




         PCIE           Fall 2003              ECIE                    33
U.S. Department of Commerce
  Office of Inspector General
1401 Constitution Avenue, N.W.
   Washington, D.C. 20230
